HHS/OIG-Audit--"Audit of Costs Claimed by Klamath Tribal Health and
Family Services Klamath Falls, Oregon, (A-10-95-01001)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Costs Claimed by Klamath Tribal Health and Family Services
Klamath Falls, Oregon for the Period January 1, 1992 through December 31, 1994,"
(A-10-95-01001)
December 1, 1995
Complete Text of Report is available in PDF format
(165 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
In this final report, we determined that the Indian Health Services (IHS initially
provided cash to Klamath Tribal Health and Family Services (KTHFS) in excess
of actual cash expenditures, resulting in the accumulation of $316,651 of excess
cash held in certificates of deposit as of December 31, 1994. The KTHFS did
not subsequently reduce its cash requests to eliminate the excess. In addition,
the KTHFS also made excessive payments totaling $94,637 to its executive director
over a two-year period.